om
I

C@OCKLE

2311 Douglas Street Le ga 1B rie f s E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 ‘Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-792
VUGO, INC.,
Petitioner,
v.
CITY OF NEW YORK,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 21st day of January, 2020, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE GOLDWATER INSTITUTE AND
CATO INSTITUTE IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been
served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
ILYA SHAPIRO JACOB HUEBERT*
TREVOR BURRUS SCHARF-NORTON CENTER FOR
SAM SPIEGELMAN CONSTITUTIONAL LITIGATION
CATO INSTITUTE AT THE GOLDWATER INSTITUTE
1000 Mass. Ave. NW 500 E. Coronado Rd.
Washington, DC 20001 Phoenix, AZ 85004
(202) 842-0200 (602) 462-5000
ishapiro@cato.org litigation@goldwaterinstitute.org

*Counsel of Record

Counsel for Amici Curiae

Subscribed and sworn to before me this 2 Ist day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

scene, 2 E Clit Qydeaw-h, hl

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 39342
 

Attorneys for Petitioner

Jeffrey Michael Schwab Liberty Justice Center
Counsel of Record 190 South LaSalle Street, Suite 1500
Chicago, IL 60603

jschwab@libertyjusticecenter.org

Party name: Vugo, Inc.

312-263-7668

 

Attorneys for Respondent

Jamison Davies The City of New York
Law Dept
100 Church Street
New York, NY 10007

jdavies@law.nyc.gov

Party name: City of New York

212-356-2490

 

 

Other
Daniel Moshe Ortner Pacific Legal Foundation
Counsel of Record 930 G Street

Sacramento, CA 95814

dortner@pacificlegal.org

Party name: Pacific Legal Foundation

916-419-7111

 

 
